                                    Report Template = 04-30-05_rev.13




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  PRESCRIPTION DRUG PLAN 

SPONSORS’ COMPLIANCE PLANS





                    Daniel R. Levinson

                     Inspector General 


                      December 2006

                     OEI-03-06-00100

                                                                 Report Template = 04-30-05_rev.13




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                                                        Report Template = 04-30-05_rev.13




I NX TE RC OU DT UI VC ET
E                            I SO UN M M A R Y
Δ     E X E C U T I V E                   S U M M A R Y                    



                    OBJECTIVES
                    (1) To determine whether prescription drug plan sponsors have
                    developed compliance plans as required by the Medicare Prescription
                    Drug, Improvement, and Modernization Act of 2003; and

                    (2) To determine whether prescription drug plan (PDP) sponsors’
                    compliance plans, as of January 2006, addressed all of the requirements
                    and selected recommendations regarding the eight compliance elements
                    presented in Federal regulations.


                    BACKGROUND
                    As of January 1, 2006, all 43 million Medicare beneficiaries became
                    eligible to enroll in the new Part D prescription drug benefit established
                    through the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (Public Law 108-173). Part D coverage is
                    provided through private drug plans offered by plan sponsors. These
                    plans include mainly stand-alone PDPs and Medicare Advantage plans
                    that offer integrated coverage for both prescription drugs and other
                    health care. For this report, we limited our review to stand-alone PDP
                    sponsors’ compliance plans.

                    Pursuant to 42 CFR § 423.504(b)(4)(vi), PDP sponsors approved to
                    provide Part D benefits in 2006 are required to have compliance plans
                    in place. These compliance plans must address eight elements, which
                    are listed on page 2 of this report. The Office of Inspector General (OIG)
                    has consistently recommended in its Compliance Program Guidances
                    that compliance programs be implemented in a manner that addresses
                    organizations’ specific operations and risk areas. A successful
                    compliance program helps sponsors protect the integrity of Medicare
                    funds and may also improve Part D plans’ efficiency and effectiveness.

                    Beginning in November 2005, we requested copies of PDP sponsors’
                    compliance plans to determine whether they addressed the eight
                    required elements. We asked sponsors to provide all documents that
                    made up their compliance plans. By January 2006, we received
                    compliance plans covering all 79 stand-alone PDP contracts.

                    To determine whether PDP sponsors’ compliance plans addressed the
                    eight elements in Federal regulations (42 CFR § 423.504(b)(4)(vi)), we
                    reviewed each plan using information in the Centers for Medicare &
                    Medicaid Services’ (CMS) summary document, issued in June 2005,


  OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                   i
                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E              S U     M M A R Y


                   entitled “Review of Sponsors’ Fraud, Waste, and Abuse
                   Responsibilities;” and the fraud, waste, and abuse chapter of CMS’s
                   “Prescription Drug Benefit Manual,” issued in April 2006.

                   In the “Prescription Drug Benefit Manual” chapter, CMS outlines
                   requirements that sponsors’ compliance plans must address to ensure
                   that the eight elements established by regulation are met. While the
                   manual chapter outlines CMS’s current expectations for sponsors’
                   compliance plans, the June 2005 summary document was the only CMS
                   guidance available to PDP sponsors when we began our review.
                   Therefore, we reviewed plans for 17 of the requirements included in the
                   initial summary document. These 17 requirements were later included
                   in CMS’s manual chapter as well.

                   The 17 requirements we reviewed were associated with the 8 regulatory
                   compliance plan elements. For the eighth element, which involves a
                   comprehensive fraud and abuse plan, the summary document and
                   manual chapter both include a requirement that PDP sponsors develop
                   fraud and abuse plans. Neither the summary document nor the manual
                   chapter provides any additional requirements regarding the
                   development of fraud and abuse plans. However, the manual chapter
                   does provide recommendations to sponsors concerning fraud and abuse
                   plans. Comprehensive fraud and abuse plans are important to
                   maintaining the integrity of the Part D benefit. Therefore, we also
                   selected for review 11 recommendations from the manual chapter that
                   are specific to the detection, correction, and prevention of fraud, waste,
                   and abuse. This review enabled us to determine how sponsors’
                   compliance plans addressed the development of fraud and abuse
                   programs in the early stages of the Part D benefit.

                   We reviewed compliance plans to determine whether they addressed the
                   17 requirements and 11 recommendations. Our initial reviews revealed
                   that some compliance plans included language that merely restated the
                   text of the requirements and recommendations. Therefore, for six
                   requirements and six recommendations we assessed whether each plan
                   provided specifics on how the sponsor intended to implement the
                   requirement or recommendation. When a plan included these specifics,
                   we determined that it provided detailed information about the
                   requirement or recommendation.




 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                  ii
                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E              S U     M M A R Y 




                   FINDINGS
                   All PDP sponsors had compliance plans, yet 72 of the 79 plans did
                   not address all CMS requirements regarding the eight compliance
                   plan elements. As of January 2006, all sponsors had compliance plans
                   covering the 79 PDP contracts. Federal regulations outline eight
                   elements PDP sponsors must include in their compliance plans, and
                   CMS guidance documents specify that plans must address
                   17 requirements regarding the eight elements. Seventy-two of
                   seventy-nine compliance plans did not address all 17 requirements.
                   Sponsors’ compliance plans addressed a median of 13 of these
                   requirements. For six of the eight elements, all or almost all plans
                   addressed every requirement. However, many sponsors’ compliance
                   plans did not address requirements relating to two elements:
                   designation of a compliance officer and compliance committee, and
                   procedures for internal monitoring and auditing. These elements are
                   essential to the implementation of a successful compliance program.
                   Compliance officers are focal points for organizations’ compliance
                   activities and compliance committees assist in compliance program
                   implementation. Ongoing monitoring and auditing is a critical process
                   that enables organizations to identify and respond to compliance issues
                   timely and to review whether compliance plan elements are functioning
                   appropriately.

                   Over half of the compliance plans that addressed six requirements
                   involving compliance processes or programs did not contain detailed
                   information about these requirements. Details about the
                   implementation of various compliance plan requirements are essential for
                   ensuring that a compliance plan is actually functioning within an
                   organization. The six requirements are: compliance training programs,
                   processes for reporting compliance violations, internal monitoring and
                   auditing procedures, contractor monitoring and auditing procedures,
                   procedures for responding to compliance violations, and procedures for
                   implementing corrective actions. These requirements correspond to four
                   of the eight compliance plan elements outlined in Federal regulations.
                   While all compliance plans addressed the fraud and abuse element
                   in some way, only 15 of 79 plans addressed all 11 recommendations
                   that we reviewed regarding fraud detection, correction, and
                   prevention. While sponsors’ compliance plans are required to include
                   comprehensive plans to detect, prevent, and correct fraud, waste, and
                   abuse, CMS’s manual chapter includes only recommendations regarding


 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                 iii
                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E              S U     M M A R Y


                   the design of these antifraud plans. All compliance plans addressed at
                   least two of these recommendations, yet only 15 of 79 plans (19 percent)
                   addressed all 11 CMS recommendations that we included in our review.
                   At the median, plans addressed 7 of the 11 recommendations. Plans
                   most often did not address CMS recommendations relating to sponsors’
                   fraud detection procedures, fraud awareness training, and efforts to
                   coordinate and cooperate with CMS and law enforcement entities
                   regarding potential fraud. Effective compliance plans describe sponsors’
                   plans for monitoring organizational activities for potential fraud;
                   educating employees and enrollees about fraud, waste, and abuse; and
                   coordinating with Government authorities regarding fraud.

                   We determined whether compliance plans included detailed information
                   for six recommendations regarding the establishment of fraud detection,
                   correction, and prevention procedures. Even among compliance plans
                   that addressed these recommendations, over 40 percent did not include
                   detailed information.


                   RECOMMENDATION
                   This report provides results of our early review of PDP sponsors’
                   compliance plans. When implemented successfully, a compliance plan
                   that includes a comprehensive fraud, waste, and abuse program helps
                   sponsors protect the integrity of Medicare funds and may also improve
                   the operating efficiency and effectiveness of sponsors’ PDPs.

                   We found that all PDP sponsors have compliance plans. However, these
                   plans have not fully addressed all of the requirements that CMS specified
                   in its guidance documents for the eight required compliance plan
                   elements. In addition, our findings suggest that certain PDP sponsors’
                   compliance plans contain only the broad outlines of a fraud and abuse
                   plan. These compliance plans do not include descriptions of specific
                   processes to implement and monitor a fraud and abuse plan. Effective
                   compliance plans should include detailed and specific policies and
                   procedures for how plan elements will be implemented.

                   CMS has not specifically audited PDP sponsors’ compliance plans or
                   fraud, waste, and abuse programs to determine whether sponsors have
                   addressed the eight elements established by regulation.




 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                  iv
                                                                Report Template Update = 04-30-05_rev.13




E X E C U T I V E              S U     M M A R Y


                   Therefore, CMS should:
                   Ensure that PDP sponsors’ compliance plans address all requirements.
                   The manual chapter issued by CMS in April 2006 includes both
                   required and recommended provisions regarding compliance plan
                   elements. CMS should ensure that sponsors’ compliance plans address
                   all requirements presented in its manual chapter regarding the eight
                   elements set forth in regulation. CMS should also encourage sponsors
                   to provide sufficient detail in their compliance plans to clearly
                   demonstrate how sponsors are actually implementing the compliance
                   plan requirements.


                   AGENCY COMMENTS
                   CMS agreed that effective compliance plans are an important tool for
                   monitoring fraud, waste, and abuse in PDP sponsors’ Part D plans and
                   concurred with OIG’s recommendation. CMS stated that routine audits
                   beginning in 2007 will review the required compliance plan elements
                   and that sponsors will be accountable for meeting all requirements.

                   CMS provided additional comments and context on some issues in the
                   report. CMS suggested changes to language in the report concerning
                   CMS oversight of sponsors’ compliance plans and sponsors’ voluntary
                   reporting of possible fraud or misconduct to Government authorities.
                   CMS also noted that it would not be possible for compliance plans to
                   have addressed requirements included in the manual chapter in April
                   2006 because OIG reviewed compliance plans before the final manual
                   chapter was published.

                   The full text of the comments are presented in Appendix C.


                   OFFICE OF INSPECTOR GENERAL RESPONSE
                   CMS’s planned audits, as described, address our recommendation.
                   We have revised language in the body of the report and in the
                   recommendation section to address CMS’s concerns about oversight of
                   sponsors’ compliance plans and sponsors’ reporting procedures.

                   We also revised wording in the report to clarify that the
                   17 requirements included in our review were contained in the summary
                   document issued to PDP sponsors in June 2005. These requirements
                   were later included in CMS’s manual chapter as well. Therefore, the
                   PDP sponsors’ compliance plans should have addressed the
                   17 requirements at the time of our review.

 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                  v
                                                                      Report Template Update = 04-30-05_rev.13




Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9 

                   Seventy-two compliance plans did not address all requirements . . 9


                   While all plans addressed the fraud and abuse element, only

                   15 plans addressed all 11 recommendations reviewed . . . . . . . . . 13 




         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                   Office of Inspector General Response. . . . . . . . . . . . . . . . . . . . . . . 16 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 

                   A: 	Table 1: Number of Compliance Plans That Did Not Address 

                       17 CMS Requirements for the Eight Compliance Plan 

                       Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


                   B: 	Table 2: Number of Compliance Plans That Did Not Address 

                       11 Selected CMS Recommendations Regarding Sponsors’ 

                       Fraud and Abuse Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19 


                   C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 

                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D        U C T     I O N
Δ    I N T R O D U C T I O N                           



                    OBJECTIVES
                    (1) To determine whether prescription drug plan sponsors have developed
                    compliance plans as required by the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003; and

                    (2) To determine whether prescription drug plan (PDP) sponsors’
                    compliance plans, as of January 2006, addressed all of the requirements
                    and selected recommendations regarding the eight compliance elements
                    presented in Federal regulations.


                    BACKGROUND
                    Medicare Coverage of Prescription Drugs
                    Section 101 of the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (Public Law 108-173) established Medicare
                    Part D to provide outpatient prescription drug benefits under the Medicare
                    program. As of January 1, 2006, all 43 million1 Medicare beneficiaries
                    became eligible to enroll in the new Part D prescription drug benefit. It is
                    estimated that the Part D benefit will cost $31 billion in 2006 and
                    $768 billion over 10 years.2
                    Part D coverage is provided through private drug plans offered by plan
                    sponsors. These plans include mainly stand-alone PDPs and Medicare
                    Advantage plans that offer integrated coverage both for prescription drugs
                    and for other health care.3 For this report, we limited our review to
                    stand-alone PDP sponsors’ compliance plans. As of June 2006, more than
                    22 million Medicare beneficiaries were enrolled in a Part D drug plan;
                    16.4 million of these beneficiaries were enrolled in stand-alone PDPs.4
                    Prescription Drug Plan Sponsors’ Compliance Plans
                    Entities that sought to become PDP sponsors were required to complete an
                    application and bidding process that began in January 2005.5 The Centers
                    for Medicare & Medicaid Services (CMS) awarded contracts to successful
                    applicants in September 2005. PDP sponsors are required to implement
                    compliance plans that include comprehensive plans to detect, correct, and
                    prevent fraud, waste, and abuse.6 A successful compliance program helps
                    sponsors protect the integrity of Medicare funds and may also improve
                    Part D plans’ efficiency and effectiveness.

                    To qualify to become a PDP sponsor, applicants were required to attest in
                    Section 3.12 of the PDP sponsor application that their compliance plans
                    addressed the eight elements required in Federal regulations.


 OEI-03-06-00100    PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      1
                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D        U C T     I O N

                    As listed in 42 CFR § 423.504(b)(4)(vi), the eight elements PDP sponsors’
                    compliance plans must contain are:

                    (1) Written policies, procedures, and standards of conduct articulating the
                        organization’s commitment to comply with all applicable Federal and
                        State standards.

                    (2) The designation of a compliance officer and compliance committee
                        accountable to senior management.

                    (3) Effective training and education between the compliance officer and
                        organization employees, contractors, agents, and directors.

                    (4) Effective lines of communication between the compliance officer and
                        the organization’s employees, contractors, agents, directors and
                        members of the compliance committee.

                    (5) Enforcement of standards through well-publicized disciplinary
                        guidelines.

                    (6) Procedures for effective internal monitoring and auditing.

                    (7) Procedures for ensuring prompt response to detected offenses and
                        development of corrective action initiatives relating to the
                        organization’s contract as a Part D plan sponsor.

                    (8) A comprehensive fraud and abuse plan to detect, correct, and prevent
                        fraud, waste, and abuse. This fraud and abuse plan should include
                        procedures to voluntarily self-report potential fraud or misconduct
                        related to the Part D program to the appropriate government
                        authority.7
                    In addition to attesting that their compliance plans addressed these
                    elements, applicants were asked to provide narrative responses describing
                    the sections of their compliance plans related to fraud, waste, and abuse as
                    they would apply to the operation of the Medicare Part D benefit.
                    According to the PDP sponsor application instructions, CMS expected
                    compliance plans containing these elements to be in place by
                    September 15, 2005.8
                    Compliance Plan Guidance for Prescription Drug Plan Sponsors
                    In June 2005, CMS issued an eight-page summary document, “Review of
                    Sponsors’ Fraud, Waste, and Abuse Responsibilities,” containing
                    compliance plan guidance for applicants to use during the bidding process.
                    On February 8, 2006, CMS issued more detailed guidance in the form of a
                    draft chapter for its “Prescription Drug Benefit Manual” and solicited PDP
                    sponsors’ comments. In April 2006, CMS finalized the chapter of the


 OEI-03-06-00100    PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      2
                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D        U C T     I O N

                    “Prescription Drug Benefit Manual” outlining the requirements and
                    recommendations for compliance plans. CMS specified multiple
                    requirements for four of the eight compliance plan elements. For each of
                    the remaining four elements, CMS specified only one requirement, which is
                    essentially the same as the element.

                    The manual chapter CMS developed for PDP sponsors is similar to
                    Compliance Program Guidances the Office of Inspector General (OIG) has
                    been issuing since 1998 for health care entities such as hospitals, home
                    health agencies, durable medical equipment companies, and managed care
                    organizations. The OIG Compliance Program Guidances contain elements
                    that are the same as the first seven compliance plan elements specified in
                    the Part D regulations.9 OIG has reiterated in each of its Compliance
                    Program Guidances that all of these compliance plan elements are
                    essential to developing an effective compliance program that reduces an
                    organization’s vulnerability to fraud, waste, and abuse.
                    Antifraud, Waste, and Abuse Plans (Eighth Element)
                    PDP sponsors’ compliance plans must address eight elements. For the
                    eighth element, which involves a comprehensive fraud and abuse plan,
                    CMS’s manual chapter requires PDP sponsors to develop fraud and abuse
                    plans but does not provide any other specific requirements. However, the
                    manual chapter does provide recommendations to sponsors concerning
                    fraud and abuse plans. The manual chapter explains that these
                    recommendations provide sponsors with a road map to develop and
                    implement effective fraud, waste, and abuse programs to protect Part D
                    plans and the Medicare Trust Fund. The manual chapter also states that
                    sponsors may either create a separate fraud, waste, and abuse program or
                    integrate fraud, waste, and abuse provisions into the other seven elements
                    of their compliance plans.
                    Oversight of Prescription Drug Plan Sponsors’ Compliance Activities
                    CMS’s “Part D Oversight Strategy for Contractors/Industry” specifies that
                    new Medicare Drug Integrity Contractors (MEDIC) will be responsible for
                    many Part D oversight activities. MEDICs’ responsibilities include
                    analyzing claims and other data, investigating potential fraud and abuse,
                    referring potential fraud cases to appropriate law enforcement agencies or
                    CMS, conducting program integrity audits, and reviewing the fraud and
                    abuse components of PDP sponsors’ compliance plans. CMS has already
                    selected several companies as MEDICs, but has not yet assigned any task
                    orders to these companies to review PDP sponsors’ compliance efforts or
                    fraud, waste, and abuse programs. As of August 2006, only one MEDIC
                    was operating under an approved task order. This MEDIC’s efforts have

 OEI-03-06-00100    PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      3
                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D        U C T     I O N

                    focused on processing complaints regarding Part D fraud, waste, and
                    abuse, particularly in the areas of enrollment and marketing.


                    METHODOLOGY
                    Compliance Plan Request
                    To determine whether PDP sponsors developed compliance plans as
                    required by Federal regulations, we requested copies of compliance plans
                    for the 79 stand-alone PDP contracts with CMS. For each contract, we
                    mailed a letter to the PDP sponsor asking it to provide all documents that
                    made up its compliance plan.

                    We collected compliance plans between November 2005 and January 2006.
                    We received 60 compliance plans covering all 79 contracts. Several PDP
                    sponsors operate multiple prescription drug plans across the country, but
                    each of these sponsors has just one compliance plan in place to cover all of
                    its PDPs. In our analysis, we counted a compliance plan that covered
                    multiple PDP contracts once for every contract it covered. Therefore, the
                    total number of compliance plans referred to in this report is 79.
                    Compliance Plan Review
                    To determine whether PDP sponsors’ compliance plans addressed CMS’s
                    requirements and recommendations regarding the eight elements, we
                    developed a detailed checklist and used it to review each compliance plan.
                    The checklist contained eight sections corresponding to the eight required
                    compliance plan elements. We based the checklist on statements included
                    in CMS’s summary document issued June 2005, entitled “Review of
                    Sponsors’ Fraud, Waste, and Abuse Responsibilities” and on the fraud,
                    waste, and abuse chapter of CMS’s “Prescription Drug Benefit Manual,”
                    issued in April 2006.

                    For nearly all checklist items, we adopted a very broad approach to
                    determining whether the text of a plan addressed a compliance plan
                    requirement or recommendation. Two requirements regarding the second
                    element were exceptions to this approach. These requirements state that
                    sponsors must designate a compliance officer and compliance committee.
                    We reviewed plans for specific evidence that a sponsor had designated a
                    compliance officer and compliance committee to determine if the
                    compliance plan had addressed these requirements.

                    We did not attempt to assess the quality of the plans, nor the extent to
                    which the plans had been implemented as part of PDP sponsors’
                    operations. Some sponsors provided us with the compliance plan section of



 OEI-03-06-00100    PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      4
                                                                               Report Template Update = 04-30-05_rev.13




I N T R O D             U C T        I O N

                          the completed PDP application that they submitted to CMS for approval in
                          2005. We did not include these documents in our review.
                          Requirements for Eight Compliance Plan Elements
                          In the manual chapter, CMS outlines requirements that sponsors’
                          compliance plans must address to ensure that the eight elements
                          established by regulation are met. CMS’s manual chapter distinguishes
                          between statutory or regulatory program requirements that must be
                          included in sponsors’ compliance plans and recommendations that CMS
                          suggests sponsors address in their plans.

                          While the manual chapter issued in April 2006 outlines CMS’s current
                          expectations for sponsors’ compliance plans, the June 2005 summary
                          document was the only CMS guidance available to PDP sponsors when we
                          began our review. Therefore, we reviewed plans for 17 of the requirements
                          included in the initial summary document. These 17 requirements were
                          later included in CMS’s manual chapter as well.

                          We used the 17 requirements to determine whether sponsors’ compliance
                          plans addressed the eight compliance plan elements. For four elements
                          (1, 3, 5, and 8), the CMS guidance specifies only one requirement, which is
                          essentially the same as the element. Compliance plan elements and the
                          requirements related to each element are presented in Table 1 below.

Table 1. Eight Compliance Plan Elements and Seventeen Related CMS Requirements

 Element 1: Written policies, procedures, and standards of conduct articulating the organization’s commitment to
 comply with all applicable Federal and State standards*
 1. Sponsor has written policies, procedures, and standards of conduct articulating the organization’s commitment to
 comply with all applicable Federal and State standards.
 Element 2: The designation of a compliance officer and compliance committee accountable to senior
 management
 2. Sponsor has a compliance officer in place.
 3. Sponsor has a compliance committee in place.
 4. Sponsor has established a compliance committee that is overseen by the compliance officer, advises the compliance
 officer, and assists in the implementation of the compliance program.
 5. Compliance officer is responsible for developing, operating, and monitoring the fraud, waste, and abuse program.
 Element 3: Effective training and education between the compliance officer and organization employees,
 contractors, agents, and directors*
 6. Sponsor has a training and education program in place.




  OEI-03-06-00100         PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                            5
                                                                                     Report Template Update = 04-30-05_rev.13




I N T R O D              U C T         I O N 



 Element 4: Effective lines of communication between the compliance officer and the organization’s employees,
 contractors, agents, directors, and members of the compliance committee
 7. Sponsor has established lines of communication to provide organization-wide information about how to report
 compliance concerns and suspected or actual misconduct.
 8. Sponsor has mechanisms in place for capturing concerns and risks, such as hotlines, suggestion boxes, or employee
 exit interviews.
 Element 5: Enforcement of standards through well-publicized disciplinary guidelines*
 9. Sponsor enforces standards through disciplinary guidelines.
 Element 6: Procedures for effective internal monitoring and auditing
 10. Sponsor has an internal monitoring and auditing program.
 11. Sponsor has a plan in place to monitor and audit contractors’ responsibilities and activities.
 12. When requested, sponsor is prepared to allow CMS to audit its financial records.
 13. Sponsor allows access to any auditor acting on behalf of the Federal Government or CMS to conduct an onsite audit.
 14. Sponsor’s contractors provide records to CMS or its designee.
 Element 7: Procedures for ensuring prompt response to detected offenses and development of corrective action
 initiatives relating to the organization’s contract as a Part D plan sponsor
 15. Sponsor has procedures for ensuring prompt responses to detected offenses and development of corrective action
 initiatives.
 16. Sponsor conducts appropriate corrective actions in response to potential violations.
 Element 8: A comprehensive fraud and abuse plan to detect, correct, and prevent fraud, waste, and abuse*
 17. Sponsor has a comprehensive fraud and abuse plan to detect, correct, and prevent fraud, waste, and abuse.
*For this element, CMS guidance specifies only one requirement which is essentially the same as the element.

                            Our initial reviews revealed that some compliance plans included language
                            that merely restated the text of the requirements. We therefore selected
                            six CMS requirements (numbers 6, 7, 10, 11, 15, and 16 in Table 1 above)
                            for which we assessed whether each plan provided specifics on how the
                            sponsor intended to implement the requirements. When a plan included
                            these specifics, we determined that the plan provided detailed information
                            about the requirements.
                            Recommendations for Eighth Compliance Plan Element
                            For the eighth element, regarding a comprehensive fraud and abuse plan,
                            the summary document and manual chapter both include a requirement
                            that PDP sponsors develop fraud and abuse plans. Neither the summary
                            document nor the manual chapter provides any other specific requirements
                            regarding the development of such plans; however, the manual chapter
                            does provide recommendations to sponsors concerning fraud and abuse
                            plans. Comprehensive fraud and abuse plans are important to
                            maintaining the integrity of the Part D benefit. Therefore, we selected for

  OEI-03-06-00100           PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                           6
                                                                                   Report Template Update = 04-30-05_rev.13




I N T R O D              U C T        I O N

                           review 11 recommendations from the manual chapter that are specific to
                           the detection, correction, and prevention of fraud, waste, and abuse. This
                           review enabled us to determine how sponsors’ compliance plans addressed
                           the development of fraud and abuse programs in the early stages of the
                           Part D benefit.

                           We reviewed sponsors’ compliance plans to determine whether they
                           addressed the 11 recommendations. Compliance plans that addressed at
                           least one of these CMS recommendations were considered to have
                           addressed the requirement for the eighth element. The 11 selected
                           recommendations related to the eighth element are presented in Table 2.

                           We selected six recommendations (numbers 1, 2, 3, 7, 8, and 10 in Table 2)
                           for which we assessed whether each plan provided specifics on how the
                           sponsor intended to implement the recommendations. When a plan
                           included these specifics, we determined that the plan provided detailed
                           information about the recommendations.

Table 2. Eleven CMS Recommendations Regarding Sponsors’ Antifraud Plans

Element 8: A comprehensive fraud and abuse plan to detect, correct, and prevent fraud, waste, and abuse

1. Sponsor has procedures for the identification of fraud, waste, and abuse in its network.
2. Sponsor has a process to identify overpayments at any level within its network and to properly repay such
overpayments in accordance with CMS policy.
3. Sponsor has policies and procedures for coordinating and cooperating with MEDICs, CMS, and law enforcement,
including policies that fully cooperate with any audits conducted by the abovementioned entities or their designees.
4. Sponsor’s compliance officer’s duties include responding to reports of potential and actual instances of Part D fraud,
waste, or abuse, including the coordination of internal investigations and the development of appropriate corrective or
disciplinary actions.
5. Sponsor’s compliance officer’s duties include maintaining documentation for each report of potential fraud, waste, or
abuse received through any of the reporting methods (i.e. hotline, mail, in-person) which summarizes the initial report of
noncompliance, the investigation, the results of the investigation, and all corrective and/or disciplinary action(s) taken as a
result of the investigation.
6. Sponsor’s compliance training addresses pertinent laws related to fraud and abuse.
7. Sponsor has various methods to educate enrollees on prescription drug fraud, waste, and abuse.
8. Sponsor has procedures for internal monitoring and auditing to test and confirm compliance with the Part D benefit
regulations, subregulatory guidance, contractual agreements, and all applicable State and Federal laws, as well as
internal policies and procedures to protect against potential fraud, waste, or abuse.
9. Sponsor receives and reviews at least one of the following data reports: payment reports, drug utilization reports,
prescribing patterns by physician reports, geographic ZIP reports.
10. Sponsor conducts data analysis that includes the comparison of claim information against other data (e.g., provider,
drug provided, diagnoses, or beneficiaries) to identify potential errors and/or potential fraud.
11. Sponsor has procedures in place to voluntarily self-report potential fraud or misconduct to Government authorities
such as OIG (through OIG’s Provider Self-Disclosure Protocol) or the Department of Justice.

  OEI-03-06-00100          PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                                7
                                                                        Report Template Update = 04-30-05_rev.13




I N T R O D        U C T     I O N

                    Standards
                    This inspection was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00100    PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      8
                                                                       Report Template Update = 04-30-05_rev.13




Δ    F I N D I N G S 


                                                         As of January 2006, all sponsors had
All PDP sponsors had compliance plans, yet
                                                         compliance plans covering the
           72 of the 79 plans did not address
                                                         79 PDPs. Some sponsors submitted
    all CMS requirements regarding the eight             compliance documents that had been
                   compliance plan elements              prepared by their pharmacy benefit
                                                         managers or parent organizations.
                   Compliance plans ranged in length from a nine-page document to two large
                   binders full of compliance information. Some compliance plans were a
                   collection of policy and procedure documents, while other plans were
                   individual documents divided into chapters for different compliance issues.

                   Federal regulations concerning PDPs outline eight elements that sponsors
                   must include in their compliance plans.10 CMS’s guidance documents
                   specify 17 requirements relating to the eight compliance plan elements.
                   Sponsors’ compliance plans addressed between 6 and 17 of these
                   requirements. Seventy-two of the seventy-nine compliance plans did not
                   address all 17 requirements. Sponsors’ plans addressed a median of
                   13 requirements. Table 1 in the Appendix provides information on the
                   number of plans that did not address each of the 17 requirements.

                   All or almost all of the compliance plans addressed every requirement
                   relating to six of the eight elements. Many sponsors’ compliance plans did
                   not address requirements relating to two elements: designation of a
                   compliance officer and compliance committee, and procedures for internal
                   monitoring and auditing.

                   Compliance officer and compliance committee. Twenty-one compliance
                   plans did not address all requirements regarding the compliance officer
                   and compliance committee element. Four of these twenty-one plans did not
                   address the compliance officer and compliance committee element in any
                   way.

                   Twelve compliance plans did not indicate that sponsors designated a
                   compliance officer. Eleven compliance plans did not indicate that sponsors
                   designated a compliance committee. Federal regulations state that all
                   PDP sponsors must have a compliance officer and compliance committee in
                   place.11 PDP sponsors’ compliance officers are responsible for developing,
                   operating, and monitoring the organization’s fraud, waste, and abuse
                   program, yet 63 plans did not state that the compliance officer or another
                   individual or group is specifically responsible for maintaining the sponsor’s
                   antifraud program, as required. An organization’s compliance officer
                   serves as the focal point for compliance activities and an organization’s



 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      9
                                                                          Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S

                      compliance committee typically advises the compliance officer and assists
                      in the implementation of the compliance program.

                      Internal monitoring and auditing. Seventy-one compliance plans did not
                      address all requirements for the internal monitoring and auditing element.
                      Fifty-two of these seventy-one plans addressed only one or two of the five
                      requirements for the internal monitoring and auditing element.

                      PDP sponsors are required to monitor and audit their contractors’
                      activities regarding the administration and delivery of the Part D benefit
                      and to ensure that contractors’ records are available for Government
                      review. (We use the term contractors to indicate organizations that CMS’s
                      manual chapter refers to as “first-tier entities” or “downstream entities.”)
                      Forty-four compliance plans did not indicate that sponsors have procedures
                      in place to monitor and audit their contractors’ activities. In addition,
                      64 plans did not indicate that sponsors’ contractors would provide their
                      records to CMS or its designee. CMS is required to conduct audits to
                      confirm sponsors’ compliance with Part D contracts; however, 48 plans did
                      not indicate that sponsors would allow CMS or other Government
                      authorities to audit their records. While these results do not suggest that
                      sponsors or their contractors would not provide requested records, the
                      compliance plans contained no information relating to these requirements.

                      An ongoing monitoring and auditing process is critical to a successful
                      compliance program because it enables an organization to identify and
                      respond to compliance issues timely and to assess whether compliance plan
                      elements are functioning appropriately (e.g., whether employees are
                      completing compliance training, whether compliance policies have been
                      distributed or made available).
                      Over half of compliance plans did not contain detailed information for each of
                      six requirements involving compliance processes or programs
                      While sponsors’ compliance plans in some way addressed certain CMS
                      compliance plan requirements, the majority of plans did not contain details
                      about how sponsors would implement these requirements. Details about
                      the implementation of various compliance plan requirements are essential
                      for ensuring that a compliance plan is actually functioning within an
                      organization.

                      More than half of compliance plans that addressed each of six
                      requirements we reviewed involving compliance processes or programs did
                      not contain detailed information for these requirements. These
                      requirements correspond to four of the eight compliance plan elements.
                      The six requirements are: compliance training programs, processes for


    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     10
                                                                          Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S

                      reporting compliance violations, internal monitoring and auditing
                      procedures, contractor monitoring and auditing procedures, procedures for
                      responding to compliance violations, and procedures for implementing
                      corrective actions. The number of plans that did not address each
                      requirement in detail is presented in Table 1 of Appendix A.
                      Compliance training programs. All but one compliance plan (78 of 79)
                      addressed compliance training and education programs, but more than half
                      of these plans (41 of 78) did not include any details regarding these
                      programs. One compliance plan only indicated that the sponsor was
                      currently working on a training plan. Another plan stated that the sponsor
                      will update its compliance training program based on legal and regulatory
                      requirements; however, the plan provided no detailed information about
                      the content of the sponsor’s training program. Compliance training
                      programs are critical to ensuring that appropriate information regarding
                      compliance plans and specific risk areas is communicated to individuals
                      throughout an organization. Effective compliance plans include the
                      following types of information regarding sponsors’ compliance training
                      programs: the topics to be covered, the format of the training, and the
                      consequences to employees of their failure to participate in compliance
                      training.
                      Processes for reporting compliance violations. Seventy-five of seventy-nine
                      compliance plans indicated that sponsors have systems to communicate
                      information throughout their organizations about reporting compliance
                      concerns and misconduct. However, 44 of these 75 plans did not provide
                      substantive descriptions of sponsors’ reporting systems. For example, one
                      plan simply stated that the compliance officer would be available to
                      employees and contractors to clarify compliance policies and procedures,
                      but did not provide detailed information regarding the sponsor’s reporting
                      systems. Organizations should have mechanisms in place for the reporting
                      of improper conduct so that such allegations may be reviewed and
                      addressed as appropriate. It is essential that reporting systems be clearly
                      communicated to employees and contractors so that they can make
                      effective use of these systems when necessary.
                      Internal and contractor monitoring and auditing procedures. All but one
                      compliance plan addressed sponsors’ internal monitoring and auditing
                      procedures in some way, but more than half of these plans (44 of 78) did
                      not describe monitoring and auditing procedures in detail. For example,
                      one plan only noted that the sponsor uses audits to monitor compliance and
                      prepares an annual compliance work plan with audit schedules. The plan
                      did not include the audit schedule or any additional information about the

    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     11
                                                                          Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S

                      the sponsor’s monitoring and auditing program. Of the 35 compliance
                      plans that mentioned sponsors’ efforts to monitor contractors’ activities,
                      26 plans did not describe sponsors’ procedures for monitoring and auditing
                      contractors’ performance in detail. An ongoing evaluation process is
                      critical to a successful compliance program. An effective compliance plan
                      includes an auditing schedule and identifies the auditing and monitoring
                      techniques that will be used by an organization and the areas that will be
                      subject to audit.
                      Procedures for responding to compliance violations. All 79 compliance plans
                      indicated that sponsors have procedures in place for ensuring prompt
                      response to detected offenses and for developing and implementing
                      corrective actions. However, 43 plans did not describe these procedures.
                      For example, one plan merely stated that the compliance officer is
                      responsible for requesting an investigation of a suspected violation of the
                      law or the sponsor’s compliance policy. Another plan only stated that the
                      sponsor would conduct an investigation as promptly as practicable when a
                      violation is reported.

                      Detected but uncorrected compliance violations can seriously endanger the
                      mission, reputation, and legal status of an organization. The development
                      of procedures for conducting timely and reasonable inquiries into reported
                      misconduct and responding to the results of such inquiries is critical to
                      ensuring that organizations respond appropriately to suspected
                      noncompliance.
                      Procedures for implementing corrective actions. Fifty-four of seventy-nine
                      compliance plans did not provide detailed descriptions of the types of
                      corrective actions sponsors undertake in response to compliance violations.
                      Some of these plans offered only brief, general statements regarding
                      sponsors’ corrective actions. For example, several plans indicated that
                      sponsors’ employees are subject to “ . . . disciplinary action up to and
                      including termination . . . ” in response to compliance violations. Effective
                      compliance programs include guidance regarding disciplinary actions for
                      compliance violations.




    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     12
                                                                          Report Template Update = 04-30-05_rev.13




F    I N D I N G       S 





      While all compliance plans addressed the fraud and              While all plans in some way
         abuse element in some way, only 15 of 79 plans               addressed at least 2 of the
                                                                      11 CMS recommendations
     addressed all 11 recommendations that we reviewed
                                                                      that we reviewed regarding
    regarding fraud detection, correction, and prevention
                                                                      the development of a
                      comprehensive fraud and abuse plan, only 15 plans addressed all 11
                      selected recommendations. At the median, plans addressed 7 of these 11
                      recommendations. The eighth compliance plan element set forth in Part D
                      regulations requires PDP sponsors to have “a comprehensive fraud and
                      abuse plan to detect, correct, and prevent fraud, waste, and abuse.”12
                      CMS’s manual chapter, issued in April 2006, contains a number of
                      recommendations regarding the overall design of PDP sponsors’ compliance
                      plans. We selected 11 of these recommendations that were specific to fraud
                      detection, correction, and prevention and determined whether sponsors’
                      compliance plans addressed them. The number of plans that did not
                      address each recommendation selected for review is presented in Table 2 of
                      the Appendix.

                      Sponsors’ efforts to detect fraud and abuse are essential to the integrity of
                      the Part D benefit. Of the 79 compliance plans reviewed, 14 did not
                      indicate that sponsors have any procedures in place to identify fraud,
                      waste, and abuse. In addition, analysis of claims and other data is a key
                      activity in identifying fraud,13 yet 28 compliance plans did not indicate
                      that sponsors conduct any analysis of program data to examine trends,
                      identify potential errors, or detect fraud. Effective compliance plans
                      include specific techniques that are utilized to monitor an organization’s
                      activities for potential fraud and abuse, procedures for conducting reviews
                      of identified issues, and policies and procedures for responding to identified
                      noncompliance.

                      Nineteen of seventy-nine plans did not indicate that sponsors have policies
                      and procedures in place for coordinating and cooperating with CMS and
                      law enforcement entities. CMS’s manual chapter includes a
                      recommendation that sponsors have procedures to voluntarily report fraud
                      or misconduct to Government authorities such as OIG or the Department
                      of Justice, yet 19 plans did not indicate that sponsors have such procedures
                      in place.

                      Forty-six compliance plans did not indicate that sponsors addressed CMS’s
                      recommendation that their compliance training programs educate
                      employees on fraud and abuse laws. Fifty compliance plans did not
                      indicate that sponsors have methods to educate their enrollees on fraud,

    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     13
                                                                          Report Template Update = 04-30-05_rev.13




F   I N D I N G 
S

                      waste, and abuse. Educating employees and enrollees is a key component
                      to ensuring that such individuals recognize and know how to report
                      potential fraud and abuse and compliance violations.
                      Even when compliance plans addressed certain CMS recommendations, over
                      40 percent did not include detailed information
                      In addition to determining whether sponsors’ compliance plans addressed
                      CMS’s recommendations in any way, we also determined whether plans
                      included detailed information for six recommendations regarding the
                      establishment of fraud detection, correction, and prevention procedures.
                      Over 40 percent of plans that addressed the 6 recommendations did not
                      contain detailed information for each of the recommendations. A
                      compliance plan should include detailed and specific policies and
                      procedures for how the various plan elements will be implemented in order
                      to operate as a functioning and effective compliance program.

                      Sixty-five of seventy-nine plans indicated that sponsors have procedures in
                      place for the identification of fraud, waste, and abuse, but 28 of the
                      65 plans (43 percent) included only basic references to these procedures.
                      Thirteen of these twenty-eight plans made brief references to the sponsor’s
                      fraud hotline, or to fraud, waste, and abuse training. Another five plans
                      stated only sponsors’ intentions to address fraud, waste, and abuse in the
                      future. Forty-three of seventy-nine plans indicated that sponsors have
                      processes to identify overpayments or repay such overpayments, yet 41 of
                      the 43 plans (95 percent) did not describe these processes in any detail.

                      Fifty-one of seventy-nine plans indicated that sponsors conduct data
                      analysis to detect fraud. Thirty-seven of these 51 plans (73 percent) did
                      not include descriptions of data analysis processes or methods to identify
                      errors and questionable data patterns.
                      Twenty-nine plans indicated that sponsors have methods to educate their
                      enrollees on fraud, waste, and abuse. However, 19 of these plans
                      (66 percent) did not describe sponsors’ education methods in detail.

                      Sixty-nine of seventy-nine plans indicated that sponsors have monitoring
                      and auditing procedures that test sponsors’ compliance with laws,
                      regulations, and internal policies, but 40 of the 69 plans (58 percent) did
                      not provide descriptions of these procedures to protect against potential
                      fraud and abuse. Sixty of seventy-nine plans indicated that sponsors have
                      policies and procedures in place for coordinating and cooperating with CMS
                      and law enforcement entities. Of these, 46 plans (77 percent) did not
                      describe sponsors’ policies and procedures for such coordination and
                      cooperation.


    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     14
                                                                       Report Template Update = 04-30-05_rev.13




E X E C U T I V E              S U     M M A R Y
Δ    R E C O M M E N D A T I O N                                




                   This report provides results of our early review of PDP sponsors’
                   compliance plans. When implemented successfully, a compliance plan that
                   includes a comprehensive fraud, waste, and abuse program helps sponsors
                   protect the integrity of Medicare funds and may also improve the operating
                   efficiency and effectiveness of sponsors’ PDPs.

                   We found that all PDP sponsors have compliance plans. However, these
                   plans have not fully addressed all of the requirements that CMS specified in
                   its guidance documents for the eight required compliance plan elements. In
                   addition, our findings suggest that certain PDP sponsors’ compliance plans
                   contain only the broad outlines of a fraud and abuse plan. These compliance
                   plans do not include descriptions of specific processes to implement and
                   monitor a fraud and abuse plan. Effective compliance plans should include
                   detailed and specific policies and procedures for how plan elements will be
                   implemented.

                   CMS has not specifically audited PDP sponsors’ compliance plans or fraud,
                   waste, and abuse programs to determine whether sponsors have addressed
                   the eight elements established by regulation. Therefore, CMS should:
                   Ensure that PDP sponsors’ compliance plans address all requirements.
                   The manual chapter issued by CMS in April 2006 includes both required
                   and recommended provisions regarding compliance plan elements. CMS
                   should ensure that sponsors’ compliance plans address all requirements
                   presented in its manual chapter regarding the eight elements set forth in
                   regulation. CMS should also encourage sponsors to provide sufficient
                   detail in their compliance plans to clearly demonstrate how sponsors are
                   actually implementing the compliance plan requirements.


                   AGENCY COMMENTS
                   CMS agreed that effective compliance plans are an important tool for
                   monitoring fraud, waste, and abuse in PDP sponsors’ Part D plans and
                   concurred with OIG’s recommendation. CMS stated that it stands ready to
                   take appropriate action against any plan that fails to respond to its
                   concerns.

                   CMS also provided additional comments and context on some issues in the
                   report. CMS stated that the short timeframes for implementing many new
                   provisions of the Medicare Prescription Drug, Improvement, and
                   Modernization Act may have had an impact on how thorough documents,
                   such as compliance plans, were. CMS also stated that, although

 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     15
                                                                          Report Template Update = 04-30-05_rev.13




R   E C O        M M E N D A T           I O N      S

                      compliance plan audits will not begin until January 2007, CMS account
                      managers have been conducting routine compliance efforts with PDP
                      sponsors since the start of the Part D program. CMS stated that the
                      routine audits beginning in 2007 will review the required compliance plan
                      elements and that sponsors will be accountable for meeting all
                      requirements.

                      CMS stated that it would not be possible for compliance plans to address
                      all 17 requirements to the extent that these requirements were found in
                      the April 2006 manual chapter because OIG reviewed compliance plans
                      that sponsors provided between November 2005 and January 2006.

                      CMS also suggested modifying language in the report concerning PDP
                      sponsors’ voluntary reporting of possible fraud or misconduct to
                      Government authorities, such as OIG or the Department of Justice.

                      The complete text of CMS’s comments can be found in Appendix C.


                      OFFICE OF INSPECTOR GENERAL RESPONSE
                      CMS’s planned audits, as described, address our recommendation. In
                      addition, OIG acknowledges the efforts CMS described to ensure that PDP
                      sponsors comply with requirements on a range of issues and we have
                      revised language in our recommendation section accordingly.

                      We have revised language in the report concerning PDP sponsors’
                      procedures for voluntarily reporting misconduct to Government
                      authorities. We also revised wording in the report to clarify that the
                      17 requirements included in our review were contained in the summary
                      document issued to PDP sponsors in June 2005. These requirements were
                      later included in CMS’s manual chapter as well. Therefore, the PDP
                      sponsors’ compliance plans should have addressed the 17 requirements at
                      the time of our review.




    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     16
                                                                                         Report Template Update = 04-30-05_rev.13




ΔA      P
         A PP EP NE DN I DX I ~ XA ~ A

Table 1. Number of Compliance Plans That Did Not Address 17 CMS Requirements for the Eight
Compliance Plan Elements
                                                                                                          Plans     Plans addressed
                                                                               Plans did not
                                                                                                  addressed the     the requirement,
 Compliance plan requirements                                                   address the
                                                                                                  requirement in     but not in detail
                                                                                requirement
                                                                                                      some way       NR=Not Reviewed

 Element 1: Written policies, procedures, and standards of conduct
 1. Sponsor has written policies, procedures, and standards of conduct
 articulating the organization’s commitment to comply with all applicable                     0                79                   NR
 Federal and State standards.
 Element 2: Compliance officer and compliance committee

 2. Sponsor has a compliance officer in place.                                               12                67                   NR

 3. Sponsor has a compliance committee in place.                                             11                68                   NR
 4. Sponsor has established a compliance committee that is overseen by the
 compliance officer, advises the compliance officer, and assists in the                      16                63                   NR
 implementation of the compliance program.
 5. Compliance officer is responsible for developing, operating, and
                                                                                             63                16                   NR
 monitoring the fraud, waste, and abuse program.
 Element 3: Compliance training and education

 6. Sponsor has a training and education program in place.                                    1                78                   41

 Element 4: Lines of communication
 7. Sponsor has established lines of communication to provide organization-
 wide information about how to report compliance concerns and suspected or                    4                75                   44
 actual misconduct.
 8. Sponsor has mechanisms in place for capturing concerns and risks, such
                                                                                              4                75                   NR
 as hotlines, suggestion boxes, or employee exit interviews.
 Element 5: Disciplinary guidelines

 9. Sponsor enforces standards through disciplinary guidelines.                               4                75                   NR

 Element 6: Internal monitoring and auditing

 10. Sponsor has an internal monitoring and auditing program.                                 1                78                   44
 11. Sponsor has a plan in place to monitor and audit contractors’
                                                                                             44                35                   26
 responsibilities and activities.
 12. When requested, sponsor is prepared to allow CMS to audit its financial
                                                                                             48                31                   NR
 records.
 13. Sponsor allows access to any auditor acting on behalf of the Federal
                                                                                             58                21                   NR
 Government or CMS to conduct an onsite audit.
 14. Sponsor’s contractors provide records to CMS or its designee.                           64                15                   NR



             OEI-03-06-00100         PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     17
                                                                                             Report Template Update = 04-30-05_rev.13


A   P   P E N D          I X ~       A        





                                                                                                             Plans      Plans addressed
                                                                                Plans did not
                                                                                                     addressed the      the requirement,
                                                                                 address the
    Compliance plan requirements                                                                     requirement in      but not in detail
                                                                                 requirement
                                                                                                         some way        NR=Not Reviewed

    Element 7: Response to offenses and corrective actions
    15. Sponsor has procedures for ensuring prompt responses to detected
                                                                                                0                  79                   43
    offenses and development of corrective action initiatives.
    16. Sponsor conducts appropriate corrective actions in response to
                                                                                                0                  79                   54
    potential violations.
    Element 8: Comprehensive fraud and abuse plan to detect, correct, and prevent fraud, waste, and abuse
    17. Sponsor has a comprehensive fraud and abuse plan to detect,
                                                                                                0                  79                   NR
    correct, and prevent fraud, waste, and abuse.




               OEI-03-06-00100           PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     18 

                                                                                          Report Template Update = 04-30-05_rev.13



 Δ          A P P E N D I X ~ B


Table 2. Number of Compliance Plans That Did Not Address 11 Selected CMS Recommendations
Regarding Sponsors’ Fraud and Abuse Plans
                                                                                                                                    Plans
                                                                                                        Plans
                                                                                Plans did not                             addressed the
                                                                                                 addressed the
Compliance plan recommendations*                                                 address the                           recommendation,
                                                                                              recommendation
                                                                             recommendation                              but not in detail
                                                                                                  in some way
                                                                                                                         NR=Not Reviewed

Element 8: A comprehensive fraud and abuse plan to detect, correct, and prevent fraud, waste, and abuse
1. Sponsor has procedures for the identification of fraud, waste, and
                                                                                            14                  65                     28
abuse in its network.
2. Sponsor has a process to identify overpayments at any level within
its network and to properly repay such overpayments in accordance with                      36                  43                     41
CMS policy.
3. Sponsor has policies and procedures for coordinating and
cooperating with MEDICs, CMS, and law enforcement, including policies
                                                                                            19                  60                     46
that fully cooperate with any audits conducted by the abovementioned
entities or their designees.
4. Sponsor’s compliance officer’s duties include responding to reports
of potential and actual instances of Part D fraud, waste, or abuse,
                                                                                             4                  75                     NR
including the coordination of internal investigations and the development
of appropriate corrective or disciplinary actions.
5. Sponsor’s compliance officer’s duties include maintaining
documentation for each report of potential fraud, waste, or abuse
received through any of the reporting methods (i.e. hotline, mail, in-
                                                                                            12                  67                     NR
person) which summarizes the initial report of noncompliance, the
investigation, the results of the investigation, and all corrective and/or
disciplinary action(s) taken as a result of the investigation.
6. Sponsor’s compliance training addresses pertinent laws related to
                                                                                            46                  33                     NR
fraud and abuse.
7. Sponsor has various methods to educate enrollees on prescription
                                                                                            50                  29                     19
drug fraud, waste, and abuse.
8. Sponsor has procedures for internal monitoring and auditing to test
and confirm compliance with the Part D benefit regulations,
subregulatory guidance, contractual agreements, and all applicable                          10                  69                     40
State and Federal laws, as well as internal policies and procedures to
protect against potential fraud, waste, or abuse.
9. Sponsor receives and reviews at least one of the following data
reports: payment reports, drug utilization reports, prescribing patterns                    38                  41                     NR
by physician reports, geographic ZIP reports.
10. Sponsor conducts data analysis that includes the comparison of
claim information against other data (e.g., provider, drug provided,
                                                                                            28                  51                     37
diagnoses, or beneficiaries) to identify potential errors and/or potential
fraud.
 11. Sponsor has procedures in place to voluntarily self-report potential
 fraud or misconduct to Government authorities such as OIG (through                      19                      60                    NR
 OIG’s Provider Self-Disclosure Protocol) or the Department of Justice.
*CMS’s manual chapter specifies recommendations for designing the fraud and abuse plans outlined in Element 8. We reviewed
compliance plans to determine whether they addressed 11 recommendations specific to fraud detection, correction, and prevention that
we selected for review.

             OEI-03-06-00100          PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                      19
                                                                          Report Template Update = 04-30-05_rev.13




Δ   A P P E N D I X ~ C                     





    OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     20
                                                                                Report Template Update = 04-30-05_rev.13




A   P     P E N D         I X ~    C      





        OEI-03-06-00100     PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     21
                                                                               Report Template Update = 04-30-05_rev.13

A   P   P E N D        I X ~   C    





         OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     22
                                                                       Report Template Update = 04-30-05_rev.13




E N D N O T E S
Δ    E N D N O T E S                   



                       1 “MedicareCoverage—General Information.” Centers for Medicare &
                       Medicaid Services (CMS). December 2005. Available online at
                       http://www.cms.hhs.gov/CoverageGenInfo/. Accessed April 10, 2006,
                       p. 1.

                       2“Medicare Prescription Drug Benefit Fact Sheet.” Henry J. Kaiser
                       Family Foundation. May 2006. Available online at
                       http://www.kff.org/medicare/upload/7044-03-2.pdf. Accessed
                       May 16, 2006, p. 2.

                       3 “Medicare Prescription Drug Benefit: Solicitation for Applications from
                       Prescription Drug Plans (PDPs).” CMS. January 21, 2005, as revised on
                       March 9, 2005, p. 4.

                       4 “Total Medicare Beneficiaries with Drug Coverage Data (v06.11.06).”
                       CMS. June 2006. Available online at
                       http://www.cms.hhs.gov/PrescriptionDrugCovGenIn/02_EnrollmentData
                       .asp. Accessed June 15, 2006.

                       5 “Medicare Prescription Drug Benefit: Solicitation for Applications
                       from Prescription Drug Plans (PDPs).” CMS. January 21, 2005, as
                       revised on March 9, 2005, pp. 2–4.

                       6 42   CFR § 423.504(b)(4)(vi).

                       7   Ibid.

                       8 “Medicare Prescription Drug Benefit: Solicitation for Applications
                       from Prescription Drug Plans (PDPs).” CMS. January 21, 2005, as
                       revised on March 9, 2005, p. 15.

                       9“Fraud Prevention & Detection—Compliance Guidance.” U.S.
                       Department of Health and Human Services, Office of Inspector General.
                       Available online at http://oig.hhs.gov/fraud/complianceguidance.html.
                       Accessed April 28, 2006.

                       10 42   CFR § 423.504(b)(4)(vi).

                       11   Ibid.

                       12   Ibid.

                       13“Prescription Drug Benefit Manual: Chapter 9—Part D Program to
                       Control Fraud, Waste and Abuse.” CMS. April 2006, p. 43.

 OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     23
                                                                      Report Template Update = 04-30-05_rev.13




Δ   A C K N O W L E D G M E N T S                                       

                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                  Other principal Office of Evaluation and Inspections staff who contributed
                  include:

                  Amy J. Sernyak, Team Leader
                  Nancy J. Molyneaux, Program Analyst

                  Emily Dolan Multari, Program Analyst

                  Linda Abbott, Program Specialist

                  Tricia Davis, Director, Medicare Branch

                  Barbara Tedesco, Mathematical Statistician




OEI-03-06-00100   PRESCRIPTION DRUG PLAN SPONSORS’ COMPLIANCE PLANS                                     24
